                                                  NA TIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A08I00051                                                                        Page 1 of 1



                 Our investigation determined that the Subject1 recklessly plagiarized text into two NSF
         proposals. NSF made a finding of research misconduct by the Subject; sent a letter of reprimand
         to the Subject; required the Subject to submit certifications to the Assistant Inspector General for
         Investigations (AlGI), NSF OIG for three years; required the Subject's employer to submit
         assurances to the AlGI of NSF OIG for three years; prohibited the Subject from serving as a
         reviewer of NSF proposals for two years; and required the Subject to provide certification to the
         AlGI within one year ofthe finding that she has completed a course in ethics covering research
         misconduct.

                 This memo, the attached Report of Investigation, and the Deputy Director's letters
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
CONFIDENTIAL                                                                       CONFIDENTIAL




       National Science Foundation
        Office of Inspector General




                                  Confid"ential
                    Report of Investigation
                Case Number A-081000S1
                             28 January 2011
                  This Confidential Report of Investigation is provided to you
                                   FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 p(;\rsonal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF.01Z!Y to· individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolutionoftbis matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                               NSF OIG Form 22b (11/06)




                                                o
CONFIDENTIAL                                                                      CONFIDENTIAL



                                     Executive Summary

OIG's inquiry established that:

   •   copied text appeared in two ofthe Subject's NSF proposals

University's investigation establIshed that:

   •   the Subject recklessly plagiarized text into proposals submitted to NSF;
   •   the Subject's actions were a significant departure from the standards of her research
       community, and
   •   the Subject committed research misconduct

OIG concludes that:

   •   Act: The Subject copied approximately 150 lines of text into two NSF proposals,
       without proper attribution; the Subject therefore committed plagiarism.
   •   Intent: The Subject's plagiarism was reckless.
   •   Standard of Proof: A preponderance of the evidence supports the conclusion that the
       Subject's acts were a significant departure from accepted practices, and therefore
       constitute research misconduct.

OIG recommends that NSF:

   •   Make a finding of research misconduct by the Subject;
   •   Send a letter of reprimand to the Subject;
   •   Require that the Subject submit certifications to AlGI, NSF OIG for 3 years that any
       submissions made to NSF do not contain falsified, fabricated, or plagiarized material;
   •   Require that the Subject's employer submit assurances to AlGI, NSF OIG for 3 years that
       any submissions made to NSF do not contain falsified, fabricated, or plagiarized material;
   •   Prohibit the Subject from serving as a merit reviewer of NSF proposals for 2 years; and
   •   Require the Subject to provide certification to NSF OIG of attendance at a course in
       responsible conduct of research within 1 year of the finding of research misconduct.




                                                1
CONFIDENTIAL                                                                         CONFIDENTIAL



                                                    DIG's Inquiry

        We assessed an allegation that the Subject'sl NSF proposals2 contained copied text. Our
review revealed that two of the Subject's proposals contained approximately 150 lines of text
copied from 29 potential sources. We wrote the subject to obtain her perspective of the
allegation (Tab 1). She replied (Tab 2) that she copied material from the indicated sources, but
asserted that she properly provided citations for all copied material, or that no citations were
needed. The Subject did not address the absence of quotation marks or other distinguishing
features for any of the copied text. The Subject's reply did not dispel the allegation, and we
referred the investigation to the Subject's University 3 (Tab 3).

                                    University's Inquiry and Investigation

         Pursuant to its policy, the University conducted an inquiry and issued a report (Tab 4).
During the inquiry, the Subject was asked for an explanation of each of the instances of
apparently copied text in the proposals. In their assessment of her responses, the inquiry
committee found "a reasonable basis for concluding that the allegations above fall within the
definition of Research Misconduct in [University] Policy and, based on the inquiry committee's
review of the evidence and records that it considered, the allegations may have substance.,,4 As
a result, the University appointed three faculty members to serve as an investigation committee
(Ie). The University sent us the Ie report and supporting documents (Tab 5) when it completed
its investigation

        The Ie concluded that the Subject committed plagiarism in her NSF proposals. The
cover letter stated "The investigation committee's [mal report .,. concludes that, based on a
preponderance of the evidence examined, the [Subject] has committed research misconduct.
Specifically, the committee found that the [Subject] committed 45 instances of reckless
plagiarism and five instances of intentional falsification which constitute research misconduct."s

        The Ie considered each instance of copied text in the Subject's two proposals separately.
For the first proposal, 6 the Ie stated:

          After our review of these 14 instances (identified as AI-HI), we believe that one
          (D2) should be considered careless plagiarism and the other thirteen should be
          considered reckless plagiarism. The former is a table that, except one column
          which was omitted from the original source, is identical to the original source.
          Although the [Subject] appropriately cited the source of the information in the




6_
4
5
    Inquiry report, cover letter, page 1 (Tab 4).
    Ie report, cover letter, page 1 (Tab 5).

                                                         2
CONFIDENTIAL                                                                                       CONFIDENTIAL



           table, it should have been identified as "reprinted" rather than "adapted" or
           perhaps as "reprinted in part."

           In our review of the other 13 instances, we determined that the plagiarism was
           reckless. This determination was made not only on the amount of text (length)
           included in the proposal that was verbatim, but also as a result of the [Subject]'s
           description of the process used to develop the proposal. As will be outlined
           below in the findings of fact, the [Subject] reported that in her haste to put
           together the proposal, she cut and pasted material from previous proposals and
           inserted material from colleagues without verifying the originality of the material
           and in most cases never consulting the original resources. 7

For the second proposals, the Ie identified five instances of intentional falsification and 32
instances of reckless plagiarism. The Ie stated:

           Instances Dl, D2, D4, 11 and Jl were classified as falsifications, as in these
           instances the [Subject] made claims that lead the reader of the proposal to believe
           that she conducted research that in fact she did not perform. For example, in Jl
           she described a historical event ("our research"), which did not occur as portrayed
           (see pages 39-43 of the Hearing transcript). The remaining instances were
           classified as plagiarism because blocks of copied text appeared in the proposal,
           but were not enclosed in quotation marks. Some of the instances (B2 ibid, B3, Dl,
           D2, D4, 11, 12, Jl, Kl ibid, L4, L5, Ml 01 [sic], PI, Ql,
           Rl, Tl, S 1 and Ul) were also unattributed. 9

       The Ie concluded that falsification occurred because text copied by the Subject contained
the words "we" or "our." The Ie established that the Subject was not personally involved in the
research described or the literature review results described, and the statements in these instances
were therefore falsifications.

         The Subject admitted to the Ie that many of the instances of copied text were results of
"cut and paste," from the literature, web sites, or from project/proposal documents provided to
her by colleagues. 10 The Ie prepared tables that detail each instance of plagiarism and
falsification in the Subject's two NSF proposals in order to specify the source of the copied text
as from publications, conference presentations,web documents, or from the Subject's colleagues.
Specifically for the Subject's secondll proposal, the Ie report stated:         ..

           Even though this is a sole-authored application, the [Subject] certified that the
           application was her original work but claimed to have secured portions of text
           from colleagues or from a previous proposal. In sworn testimony, she said that


7    Ie Report, pages 4-5 (Tab 5). The Ie report uses the same annotation codes on proposals sent to the Subject and



11_.
to the             in the referral letter.
8

9    Ie Report, page 10 (Tab 5).
\0   Ie Report, page 7 (Tab 5).

                                                           3
CONFIDENTIAL                                                                              CONFIDENTIAL



          she used some of the unattributed text to convey a more scientific language in the
          application (page 42 of the Hearing transcript, lines 6-17).

                    "But in trying to use language that is more appropriate, I think in
                   situations, there was slippage and not careful analysis of how the
                   statements are worded, not so much that we did not come up with
                   those ideas; we didn't come up with objectives similar to that; we
                   didn't develop ideas; we didn't review the literature; or we didn't
                   actually find those things to happen. But in attempting to write
                   with language that is more scientific or more relevant to this
                   particular area, there was some slippage in terms of citation and
                   quotation of the material."

          She stated that she felt that it was better to use the words of others "rather than
          using my own wording" (page 43, line 6). 12

The IC concluded that the Subject committed research misconduct:

          We also identified several different levels of plagiarism in the two proposals
          submitted to the National Science Foundation. We identified one instance of
          careless plagiarism, 45 instances of reckless plagiarism, and five instances' of
          intentional falsification. Taken together, there is a preponderance of evidence for
          research misconduct. 13

       The IC examined the Subject's Ph.D. thesis, publications, and additional proposals for
evidence of potential plagiarism using commercial software.

          However, the softWare identified several examples of 1-2 sentences of text which
          were verbatim or near verbatim copies of text also found in the published works
          of others. In some cases, the source of the verbatim or near verbatim text was
          cited following the text while in other cases no citation was provided; however, in
          no cases were the verbatim or near verbatim texts enclosed in quotation marks.
          These examples were found in the [Subject's] Ph.D. thesis and in several
          additional publications. The Committee interprets these examples as evidence of
          potential plagiarism or, at least, inadequate paraphrasing. The Committee
          concludes that the practice of repeating verbatim and/or near verbatim text
          without proper attribution or distinguishing the text from the original text
          authored by the [Subject] may represent a pattern. 14

        In her response to the draft IC report, the Subject accepts the finding of careless
plagiarism, but disputes all findings of reckless plagiarism and falsification. The Subject
claimed that the duplicated texts were results of "honest error,,,15 and "carelessness, haste, and


12   Ie Report, page 19 (Tab 5).
13   Ie Report, page 20 (Tab 5).
14   Ie Report, page 20 (Tab 5).
15   Ie Report, Appendix 3, Subject's response, page 1 (Tab 5).
                                                          4
CONFIDENTIAL                                                                                  CONFIDENTIAL


detrimental reliance.,,16 The Subject stated: "I still don't know how and when to use quotation
marks or how to properly cite direct quotes.,,17

        The IC recommended the following actions:

        First, we urge [the Subject] to confidentially notify her collaborators for the
        "leadership" proposal ... ofthe charges as well as the findings of the
        Committee. It is possible that one ofthe collaborators or another [University]
        faculty member may use the text from this proposal in future writings. Thus, they
        need to be informed that the document is tainted by plagiarism. Second, we urge
        the Office of the Provost to identify and notify any [University] officials that it
        deems essential to preventing future occurrences of plagiarism by [the Subject]
        and her collaborators. Third, although we were unable to document how [the
        Subject] actions specifically influenced the public welfare, we commend the
        National Science Foundation's vigilant review of proposals and ask that Purdue
        University be informed of any known instances where [the Subject's] actions
        have compromised the University or the public welfare. 18

          The University Provost (Tab 6) followed the recommendations of the Ie, and l) required
  the Subj ect to notify her coPIs of the findings of research misconduct on their shared proposal; 2)
  required the Subject to complete a specified responsible conduct of research course, and 3)
  required that the Subject submit manuscripts and proposals for review and analysis of possible
. plagiarism before submission for a period ofthree years.

                                            DIG's Assessment

        On receipt of the University's IC report, we invited the Subject to comment; the Subject
did not respond. We concluded that the IC report was accurate and complete, and that the
University followed reasonable procedures. We therefore accepted the report in lieu of our own
investigation. A finding of research misconduct by NSF requires that l) there be a significant
departure from accepted practices ofthe relevant research community, 2) the research
misconduct be committed intentionally, or knowingly, or recklessly, and 3) the allegation be
proved by a preponderance of the evidence. 19

        The Subject admitted to us, and to the IC, that she copied material into her proposal.
The IC found most of her actions to be reckless plagiarism, and a significant departure from the
standards of her community2o, and therefore made a finding of research misconduct. The IC
concluded that falsification occurred because text copied by the Subject contained the words
"we" or "our," but the Subject was not personally involved in the research described. However,
the definition of falsification reads "manipulating research materials, equipment, or processes, or


 16IC Report, Appendix 3, Subject's response, page 2 (Tab 5).
 17IC Report, Appendix 3, Subject's response, page 5 (Tab 5).
18 IC Report, page 20 (Tab 5).
19 45 C.F.R. §689.2(c).
20 The IC Report, page 3 (Tab 5) states that guidance was taken from The National Academies, and the book On
Being a Scientist (Third Edition), 2009.

                                                       5
CONFIDENTIAL                                                                                         CONFIDENTIAL



changing or omitting data or results such that the research is not accurately presented in the
research record." 21 We conclude that the Subject's use of the first person plural in the proposal
text does not meet the definition of falsification.



                                                                                         22
        The Subject plagiarized approximately 150 lines of text from 29 different sources into
two NSF proposals, without the use of quotation marks or other differentiation, and often without
citation or reference to the source of the duplicated material. The NSF Grant Proposal Guide is
clear: NSF expects strict adherence to the rules ofproper scholarship and attribution. The
responsibility for proper attribution and citation rests with authors of a proposal; all parts of the
proposal should be prepared with equal care for this concern. 23 In offering text written by
others as her own words, and those words as representative of her own understanding of the
research field, the Subject significantly departed from accepted standards of the research
community as established by the University Ie.



         The Subject admitted that she copied text into her proposals,24 but asserted that the lack
of citations was careless, or that citations were not needed. However, the University IC
concluded that the absence of quotation marks or other differentiating features for the copied
text, and the lack of citation and reference, confirm her actions as reckless plagiarism. We
concur with the IC's conclusion.

                                                 Standard ofProof

        The Ie concluded by a preponderance ofthe evidence that the Subject's reckless acts
constituted plagiarism. We concur, and because these actions represent a significant departure
from accepted practices, we therefore conclude that her actions constitute research misconduct.

                                       OJG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
(4) whether it had a significant impact on the research record, research subjects, other
                                                                                       25
researchers, institutions or the public welfare; and (5) other relevant circumstances.




21   45 C.F.R. §689.l(a)(2).
22   The sources include ten publications and 19 web sites. A list of sources for each proposal is included at Tab 1.
23   NSF Grant Proposal Guide, Chapter 1, Section DJ.
24   Subject interview transcript, pages 20 and 27 (Tab 5).
25   45 C.F.R. § 689J(b).

                                                            6
CONFIDENTIAL                                                                        CONFIDENTIAL


                                            Seriousness

        The Subject copied approximately 150 lines of text from 29 sources into her NSF
proposals. In so doing, the Subject presented that text to NSF proposal reviewers as her own.
The Subject's actions represent a serious departure from NSF's expectations of standards of
scholarship. Although this is not the most egregious case our office has seen, we believe it
serious enough to warrant the recommendations outlined below.

                                  Degree to which the Act was Reckless

        The Subject recklessly copied text into her NSF proposals. Her claims that citation and
references in her proposals were adequate, or that they were not needed, and her claim to not
know about the proper use of quotation marks, are not convincing. The IC noted that the Subject
administers a class at the University26 in which plagiarism is clearly identified as an unacceptable
practice. The Subject notes that she has herself encountered student plagiarism from students in
her classes?? The Subject is a coP I on a proposal to NSF which contains multiple uses of
quotation marks, and proper citation and reference practices?8 We do not find it credible that the
Subject could (as claimed) carelessly insert copied text from 29 separate sources into her
proposals. Such actions minimally rise to the level of reckless.

                                              Pattern

        The Subject plagiarized text into two NSF proposals. The IC examined the Subject's
publications and her Ph.D. dissertation,29 and found limited evidence of similar cut-and-paste
plagiarism. There is no evidence for plagiarism in a third proposal submitted to NSF on which
the Subject is coPI. 30 We note that this third proposal contains examples of the proper use of
quotation marks and citations when using the exact words of others, contrary to the Subject's
claim not to know about proper use of quotation marks. The Subj ect' s pattern of plagiarism
appears limited to the two NSF proposals that are the focus of this investigation.

                                     Impact on the Research Record

        The Subject's proposals were declined, and the impact on the research record is minimal.




                                                 7
CONFIDENTIAL                                                                                       CONFIDENTIAL



                                         Subject's comments on draft Report

     We provided a copy of the draft Report of Investigation to the Subject, and invited
comments. We received no comments.


                                                Recommendation

          We recommend that NSF:

      •   Make a finding of research misconduct by the Subject;
      •   Send a letter of reprimand to the Subject;31
      •   Require for three years that the Subject certify to the AIGI 32 that any submissions made
          to NSF do not contain falsified, fabricated, or plagiarized material;33             .
      •   Require for three years that the Subject submit an assurance from a responsible official of
          her employer to the AlGI, that any submissions made to NSF do not contain falsified,
          fabricated, or plagiarized material;34         .
      •   Prohibit the Subject from serving as a peer reviewer of NSF proposals for 2 years;35
      •   Require the Subject to provide certification to NSF OIG of attendance at a course in
          responsible conduct of research within 1 year of the finding of research misconduct. 36




31   A letter of reprimand is a Group I action, 45 C.F.R. § 689.3(a)(1)(i).
32   The AlGI is the Assistant Inspector General for Investigations.
33   A certification from the subject is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(1).
34   Assurance from the subject's employer is analogous to listed Group I actions, 45 C.F.R. § 689.3(a)(I).
35   Prohibition from service as a reviewer for NSF is a Group III action, 45 C.F.R. § 689.3(a)(3)(ii).
36   A responsible-conduct-of-research course requirement is analogous to Group I actions, 45 C.F.R. § 689.3(a)(1).

                                                          8
CONFIDENTIAL                                                                    CONFIDENTIAL



   List of Tabs

Tab 1. OIG inquiry letter to Subject, with annotated proposals and source documents.

Tab 2. Subject's response to letter, and attachments.

Tab 3. Referral of investigation to the Subject's university.

Tab 4. University inquiry report.

Tab 5. University investigation report; Subject interview transcript.

Tab 6. University Provost adjudication letter.




                                                 9
                                   NATIONAL SCIENCE FOUNDAllON·
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230



                                              JUN 2 1 2011

       OFFICE OF THE
         DIRECTOR




 CERTIFIED MAlL --RETURN RECEIPT REQUESTED




         Re:      Notice ofResearch Misconduct Determination


 Dear_




                                                                         As documented in the.
 attached Investigative Report prepared by NSF's Office of Inspector General ("OIG"), these
 proposals contained plagiarized material.


 Research Misconduct and Sanctions
          Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
  or plagiarism in proposing or perfonning research funded by NSF ... " 45 CFR § 689.1(a). NSF
. defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
  without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
  requires that:

         (1) There be a significant departure from accepted practices of the relevant research
             community; and
        (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
        (3) The allegation be proven by a preponderance of evidence.

 45 CFR § 689.2(c).

        Your proposals contained verbatim and paraphrased text copied from several source
 documents. By submitting proposals to NSF that copied the ideas or words of another without
 adequate attribution, as 'described in the OIG Investigative Report, you misrepresented someone
                                                                                              Page 2
else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of "research misconduct" set fOlih in NSF's
regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR§ 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group T, II, and ill) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from pru.iicipation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity ofthe sanction to impose for research misconduct, I have
considered the seriousness ofthe misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern, and had
no impact on the research record, as well as other relevant circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances ofthis case, I am taking the
following actions against you:

       (1) Until June 1,2014, you must provide certifications to the OIG that any proposal or
           report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

       (2) Until June 1, 2014, you must obtain, and provide to the OIG, assurances from a
           responsible official of your employer that any proposal or report you submit to NSF as
           a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

       (3) You are prohibited from serving as an NSF reviewer, advisor, or consultant until June
           1,2013; and

       (4) By June 1, 2012, you must provide certification to the OIG of your attendance at a
           course in the responsible conduct of research.
                                                                                           Page 3
        The certifications and assurances should be submitted in writing to NSF's OIG, Associate
 Inspector General for ~vestigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.


 Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.1O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
decision will become [mal.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please                  Assistant General Counsel, at (703)
292-8060.




                                                    Sincerely,



                                                 ~
                                                ~,
                                                    Wanda Ward
                                                    Senior Advisor to the Director




Enclosures:
Investigative Report
45 C.F.R. Part 689
